DOE/IG-0448



           AUDIT
          REPORT                               REVIEW OF
                                           THE STATUS OF THE
                                    U.S. DEPARTMENT OF ENERGY’S
                                        COUNTERINTELLIGENCE
                                         IMPLEMENTATION PLAN




                                                JULY 1999



       U.S. DEPARTMENT OF ENERGY
      OFFICE OF INSPECTOR GENERAL
        OFFICE OF AUDIT SERVICES
                                       July 13, 1999


MEMORANDUM FOR THE SECRETARY

FROM:         Gregory H. Friedman (Signed)
              Inspector General

SUBJECT:      INFORMATION: Audit Report on "Review of the Status of the
               U.S. Department of Energy’s Counterintelligence Implementation Plan"


BACKGROUND

In February 1998 the President issued Presidential Decision Directive 61 (PDD-61) designed
to reorganize and improve the counterintelligence program of the U.S. Department of Energy
(Department). Subsequent to the release of PDD-61, the Department developed a
Counterintelligence Implementation Plan (CIP), which included 46 actions to achieve this
goal.

On May 26, 1999, the Under Secretary requested that the Office of Inspector General
evaluate the implementation status of the actions included in the CIP. In response to the
Department’s request, we conducted a review at Headquarters and the three largest national
laboratories to determine which of the recommendations in the CIP have been implemented.

RESULTS OF AUDIT

We reviewed the status of the recommendations at Headquarters, Albuquerque and Oakland
Operations Offices, Los Alamos National Laboratory, Sandia National Laboratories, and
Lawrence Livermore National Laboratory. For those recommendations that the Department
reported as implemented, at each location we reviewed documentation, observed practices,
and interviewed Department and laboratory Counterintelligence (CI) officials and Federal
Bureau of Investigation (FBI) personnel to determine if the recommendation had, in fact,
been implemented. On June 1, 1999, the Department reported 26 recommendations as
having been implemented. We found that the number of implemented recommendations was
actually understated and that, in fact, 28 recommendations had been implemented at the time
of our review.

The Department separated the 46 recommendations into three tiers to emphasize those that
were most critical. As noted previously, in total, 28 of the 46 recommendations had been
implemented. Of the 24 recommendations in the first tier, 21 had been implemented. For tier
two, the Department had implemented 5 of the 12 recommendations. Finally, the
Department had implemented 2 of the 10 recommendations included in tier three. For the 18
recommendations still open, 13 require Headquarters action, 1 requires field action, and 3
require action from both Headquarters and the field. The Department has decided not to
                                              2


implement the remaining recommendation because of concerns that it will impede
communication between the Department and the FBI. Our findings, related to each of the 46
recommendations, are summarized in Appendix A of the report. This information is an
integral part of the review we conducted.

Personnel at Headquarters and the field organizations were very helpful during our review.
CI elements at all levels were well aware of the importance of implementing the CIP and
were focused on achieving its goals. The commitment of Department officials to the overall
success of this effort was noteworthy.

We did not assess the effectiveness of the actions taken to implement the recommendations.
Our review, however, pointed out some concerns regarding implementation methodology.
We have provided suggested actions that, in our judgment, would help to ensure that the CIP
is a success. These concerns are discussed in the attached report.

We discussed the issues in this report with the Office of Counterintelligence, and the
respective field organizations. Please feel free to contact me should you desire to discuss any
of the issues further.

Attachment

cc: Deputy Secretary
    Under Secretary
   REVIEW OF THE STATUS OF THE U.S. DEPARTMENT OF ENERGY’S
        COUNTERINTELLIGENCE IMPLEMENTATION PLAN


TABLE OF CONTENTS


Department’s Counterintelligence Implementation Plan

Status of Implementation ………………………………………………………….                             1
Written Procedures ………………………………………………………………..                                1
Foreign Visits and Assignments …………………………………………………...                        2
Polygraph Examinations …………………………………………………………...                             2
Personnel Evaluation Boards ………………………………………………………                            2
Suggested Management Actions …………………………………………………..                           3

Appendices

A. Status of Department of Energy Counterintelligence Implementation Plan ….. 4
B. Scope and Methodology ………………………………………………………. 10
DEPARTMENT’S COUNTERINTELLIGENCE IMPLEMENTATION PLAN

In February 1998, the President issued Presidential Decision Directive 61 (PDD-61) designed
to ensure that counterintelligence programs were effective. To implement the requirements
of PDD-61, the Department developed the Counterintelligence Implementation Plan (CIP)
consisting of 46 actions to achieve this goal. In response to a May 1999 request from the
Department, the Office of Inspector General conducted a review to determine which of the
46 recommendations in the CIP have been implemented at Headquarters and the three largest
national laboratories. We have also summarized concerns that, in our judgment, require
management attention.

Status of Implementation

Our review showed that, in total, 28 of the 46 recommendations had been implemented. Of
the recommendations still open, 13 require Headquarters action, 1 requires field action, and 3
require action from both Headquarters and the field. The Department decided that it would
not be best to implement one of the recommended actions. This is discussed in the asterisked
portion of the table below. These results are presented in the following table.

                                  Summary of CIP Status
                                    As of June 1, 1999

        Recommendations           Total        Implemented           Open
                                 Number
                Tier 1              24               21                3
                Tier 2              12                5                7
                Tier 3              10                2               8*
        TOTAL                       46               28               18
       * Recommendation # 46 will not be implemented because the
         Department believes that this action would decrease the level of
         interaction between its counterintelligence (CI) functions and the
         Federal Bureau of Investigation.

Details of our findings relating to the status of CIP actions are provided in Appendix A. Our
review disclosed some weaknesses in the implementation actions. These concerns are
discussed in the following paragraphs and are followed by suggested actions that, in our
judgement, would help to ensure that the CIP is a success.

Written Procedures

CIP recommendations 19, 21, and 22, which have been reported as implemented, focus on
establishment of formal procedures to enhance communication or to enhance coordination
with other agencies. Although we determined that actions to enhance communication and
coordination have been put into practice, no written procedures have been established.
Written procedures allow future counterintelligence employees to know what is expected and
how to meet the expectation.
Similarly, recommendation 25, also reported as implemented, requires briefings targeted to
specific audiences as well as an OCI training program that establishes minimum standards.
The minimum standards for CI and Security Awareness briefings tailored to various
segments of the lab community should be formalized in writing. These minimum standards
have been communicated to the field orally. Thus, over time, each field location’s briefings
may not provide the necessary information to employees.

Foreign Visits and Assignments

Recommendations 6 and 30, although not reported as implemented, focus on policy and
tracking systems for unclassified foreign visits and assignments. The proposed publication
of DOE Order 1240.2C, which will replace DOE Order 1240.2B, Unclassified Visits and
Assignments by Foreign Nationals, should be expedited because it relates to the design and
implementation of a new centralized reporting system to track data on foreign visits and
assignments. A thorough review of the local databases currently used by the field to track
this data should be made by Headquarters personnel to ensure continuity and compatibility of
data collected. The field is working from various locally developed databases that may have
limited or no documentation. Any system used must be sufficiently documented to enable
future users to easily maneuver around the system or modify the databases as needed. It is
not clear from the Department’s response to the CIP if locally developed databases will
continue to be used once the new centralized reporting system is operational. Thus, the
development of a centralized reporting system used to track and report foreign visits and
assignments information should also be expedited.

Polygraph Examinations

Recommendation 11, which is still open, requires an expansion of current Department
polygraph capabilities and requirements for CI-scope polygraph testing. Proposed polygraph
testing of contractor employees with access to high-risk programs has caused concern with
field elements, specifically, that it will be necessary to change current contract language to
allow such testing. The Department plans to issue a notice of rulemaking on this subject
within the next 30 days.

Personnel Evaluation Boards

Recommendation 43 , also open, requires that all Department contractor operated facilities
conducting classified or sensitive technology business to establish Personnel Evaluation
Boards (PEBs). Field personnel expressed concern with the recommendation related to PEBs.
The concern raised by the field CI personnel was that PEBs many times deal with personnel
actions that have no CI risk, and as such would be a waste of CI resources. Thus, clear
guidance should be issued to set the circumstances when CI personnel should be included on
a PEB.




                                              2
SUGGESTED MANAGEMENT ACTIONS

1. Formalize, in writing, procedures for liaison of local Counterintelligence Officers with
   their FBI, Central Intelligence Agency, and National Security Agency counterparts. For
   long term stability of the program, formalization of these relationships is important.
   (Recommendations 19, 21, and 22)

2. Formalize, in writing, the minimum standards for CI and security awareness briefings
   that are tailored for presentation to various segments of the lab community.
   (Recommendation 25)

3. Expedite publication of DOE Order 1240.2C, Unclassified Visits and Assignments by
   Foreign Nationals. (Recommendation 6)

4. Expedite the design and implementation of a new centralized reporting system to track
   data on foreign visits and assignments. (Recommendation 30)

5. Establish guidelines on when a Counterintelligence Officer should sit on a Personnel
   Evaluation Board. Specifically, the guidance should explain the situations when a
   Counterintelligence Officer should be called to be part of a Personnel Evaluation Board.
   (Recommendation 43)




                                                           ________(Signed)_______
                                                           Office of Inspector General




                                             3
                                                                                                                             Office of Inspector General
                                                                                                       Status of Department of Energy Counterintelligence Implementation Plan




                                                                                                       Applicable To:                             Status of Recommendations Per                                        Results
                             Recommendations                                                                                                       Department’s Status Report                                           of IG                                 IG
                         In CI Implementation Plan                                                HQ   LANL    SNL      LLNL                     Received by the OIG May 27, 1999                                      Review                              Comments


TIER ONE 24 recommendations; 21
implemented
1. Within the laboratories the Counterintelligence (CI) function be moved out from under                                       This recommendation has been implemented.
security and given its own programmatic and operational identity with assured access to the             X       X        X                                                                                                I
laboratory director.
2. Beginning in FY99, Office of Counterintelligence (OCI) Director will submit a                                               This recommendation has been implemented.
consolidated budget request encompassing all CI activities including
DOE and Lab personnel. Henceforth, all DOE CI activities will be                                  X                                                                                                                       I
 programmed and funded directly by OCI.

3. Within next 12 months, OCI Director will assign, with concurrence of laboratory directors,                                  This recommendation has been implemented. The Director, OCI has selected
experienced Counterintelligence Officers (CIOs) at four key national laboratories.                                             experienced CIOs to head the CI Programs at Los Alamos National Laboratory
                                                                                                  X     X       X        X     (LANL), Oak Ridge National Laboratory (ORNL), Sandia National Laboratories                 I
                                                                                                                               (SNL) and Pacific Northwest National Laboratory (PNNL).

4. CIOs will request indices checks on all foreign national visitors and                                                       This recommendation has been implemented. A memorandum jointly drafted by
assignees from sensitive countries, and on those non-sensitive country foreign                                                 OCI and the Office of the Secretary was sent out on March 15, 1999, from the
nationals who will have access to sensitive technologies.                                                                      Albuquerque Operations Office to all facilities within its purview, confirming the
                                                                                                                               determination made in the Secretary’s CI Action Plan that indices checks must be
                                                                                                                               conducted for the following foreign national visitors and assignees: all those from
                                                                                                  X     X       X        X     sensitive countries and all those from any country who will have access to sensitive       I
                                                                                                                               subjects while at the facility, except as otherwise provided by the Atomic Energy
                                                                                                                               Act (AEA). A similar memo went out on April 1, 1999, from the Secretary to all
                                                                                                                               Operations Offices setting forth the same policy.



5. CIOs will contact, either orally or in writing, all DOE employees and contractors having                                    This recommendation has been implemented. OCI has notified each CIO, in
interaction with foreign nationals from sensitive countries in any foray. Based on information                                 writing, that this recommendation is in effect. Also, OCI has assigned a CI
provided, CIOs will determine if an in-person debriefing is necessary. CIOs will also develop                                  professional to each of the identified international programs.
close and cooperative relationships with DOE international scientific and non-proliferation
exchanges for pre-briefing purposes. These programs include, but are not limited to: 1)           X     X       X        X                                                                                                I
Materials Protection, Control and Accounting (MPC&A), 2) High Enriched Uranium (HEU), 3
Nuclear Cities Initiative, and 4) Initiative of Proliferation Prevention (IPP).


6. The current DOE policy & order on Unclassified Foreign Visits and Assignments (to                                           A draft has been written and will be circulated for concurrence May 12, 1999.
include all exemptions and waivers) should be rescinded and a new policy issued by the                                         Directives Management is coordinating this effort.
Secretary of Energy. The primary goal of this policy should be to delegate responsibility to
approve unclassified foreign visits and assignments to the Lab Directors, and hold them                                                                                                                                          A copy of the draft regulation was sent out for comment in early
                                                                                                  X                                                                                                                      O
accountable for these decisions. Accountability for these decisions would be ensured, in part,                                                                                                                                   June.
through the Inspection process outlined in Presidential Decision Directive-61(PDD-61).


7. As part of its overall Unclassified Foreign Visits and Assignments program, the Secretary of                                This recommendation has been implemented. OCI sent a Counterintelligence
Energy’s policy should include a requirement thatclose and continuing contact with foreign                                     Analytical Research Data System (CARDS) email message to all CIOs on March
nationals from sensitive countries be reported to local CIOs.                                                                  18, 1999, stating that this requirement was in force, and mandating that all CIOs
                                                                                                  X     X       X        X     provide OCI with a strategy for obtaining the required information. This                   I
                                                                                                                               requirement will also be incorporated into the substance of the new Order on
                                                                                                                               Unclassified Foreign Visits and Assignments.

8. The OCI Director will establish an internal inspection function to review compliance with                                   This recommendation has been implemented. OCI has hired seven inspectors and
PDD-61 and evaluate the performance of field CIOs at DOE.                                                                      one technical advisor, is scheduling three inspections for calendar year 1999, and is
                                                                                                  X                            developing CI program performance measures to be used when conducting these                I
                                                                                                                               inspections.




                                                                                                                                                                                                                                               Los Alamos National Laboratory (LANL)
       I = Implemented                                                                                                                                                                                                                             Sandia National Laboratories (SNL)
       O =Open recommendation                                                                                                                                                                                                           Lawrence Livermore National Laboratory (LLNL)
                                                                                                                             Office of Inspector General
                                                                                                       Status of Department of Energy Counterintelligence Implementation Plan




                                                                                                       Applicable To:                            Status of Recommendations Per                                      Results
                             Recommendations                                                                                                      Department’s Status Report                                         of IG                                 IG
                         In CI Implementation Plan                                                HQ   LANL    SNL      LLNL                    Received by the OIG May 27, 1999                                    Review                              Comments

9. The OCI Director will request that 6 federal full time equivalents at DOE Operations                                        This recommendation has been implemented. OCI will have hired individuals to                   DOE has functionally transferred 6 federal full time equivalents
Offices be functionally transferred to OCI by the end of calendar year 1998.                      X                            fill four of the six full time equivalents (FTE’s) by the end of FY 1999, and the       I      from the Operations Offices to HQ. DOE expects to have 4 of 6
                                                                                                                               remaining two will be filled in FY2000.                                                        filled by end of FY 1999.
10. The analysis program will complete products which will allow CI field personnel to better                                  This recommendation has been implemented. The analysis program has
target their scarce operational and analytical resources.                                                                      completed a threat assessment regarding two countries of proliferation concern,
                                                                                                  X                            and is working on the second in what will be a series of threat assessments and         I
                                                                                                                               other products designed to aid DOE’s CI professionals in better targeting their
                                                                                                                               resources.

11. The OCI will work with the Office of Security Affairs to expand DOE’s current polygraph                                    DOE published a Notice announcing this expanded authority in March of this year
                                                                                                                                                                                                                              Personnel in the Office of Counterintelligence (CN-1) have been
capability from existing resources to meet its proposed mission. The OCI Director will institute                               allowing OCI to test DOE federal employees, and OCI has tested 6 employees thus
                                                                                                                                                                                                                              scheduled to be polygraphed. The field raised concerns over
requirements for CI scope polygraph testing for initial and ongoing access to all the high-risk  X                             far, including the Director, OCI. At least 45 additional employees will be             O
                                                                                                                                                                                                                              contractor employee rights. Contracts may have to be modified to
programs, beginning with the Special Access Programs (SAPs).                                                                   polygraphed by the beginning of July 1999.
                                                                                                                                                                                                                              polygraph contractor employees, in the field’s opinion.

12. The screening and adjudicative authority for the high-risk population should be transferred                                This recommendation has been implemented. The Manager of this program, a
to OCI. The OCI will create a Personnel Security Program (PSP) which will manage the CI-                                       CIA detailee with several years of experience in the personnel security area,
Scope Polygraph Program, an expanded financial disclosure program, and forensic financial         X                            reported for duty on March 22, 1999.                                                    I
investigations.
13. As the breadth of DOE technical knowledge lies at the laboratories, OCI will request that                                  In February 1999, OCI notified Laboratory Directors in writing that these lists
each Lab Director develop an unclassified sensitive technologies list at his/her facility.                                     must be completed by early May 1999. A memorandum recently was sent from the
                                                                                                                                                                                                                              Field elements reviewed completed lists and sent to HQ. HQ in
                                                                                                  X     X       X        X     Office of the Secretary stating that the Laboratory Directors must provide OCI          I
                                                                                                                                                                                                                              process of compiling all lab lists into one.
                                                                                                                               with these lists by May 14, 1999.

14. Within the next 12 months, OCI Director will create a Cyber Program, which will work in                                    This recommendation has been implemented. OCIs Cyber Program is managed by
coordination with the larger DOE critical infrastructure protection effort as mandated by PDD-    X                            a CI-Cyber expert detailed to the OCI from the FBI’s National Infrastructure            I
63.                                                                                                                            Protection Center (NIPC).

15. Within the next 24 months, OCI Director will, in coordination with Lab Directors develop                                   OCI recently initiated a pilot program to address both CI implications of email to
and implement a complex wide strategy to address the potential CI implications of e-mail to                                    foreign nations and intrusion detection at four Department of Energy sites in FY
foreign nations, primarily sensitive countries.                                                   X                            1999. The cost of this pilot for FY 1999 is $2 million. Expansion of this pilot to     O       Pilot program dealing with CI-Cyber Security has been started.
                                                                                                                               an additional eight sites in FY2000 will require an additional $8 million.

16. OCI will review, in coordination with the FBI, the existing DOE-FBI Memorandum of                                          This recommendation has been implemented. The MOU was signed on May 10,
Understanding (MOU) in order to ensure that it addresses current CI needs as outlined in                                       1999.
PDD-61 and Cox Report.                                                                            X                                                                                                                    I


17. OCI will establish formal procedures for referrals to the FBI mandated by Section 811 of                                   This recommendation has been implemented. A formal procedure for referring
the Intelligence Reauthorization Act of 1995 (PL 103-359). OCI will be directly involved in                                    Section 811 matters from OCI to the FBI has been established by the Director of
the referral process. Education will be provided to all DOE field and laboratory employees,                                    OCI. The procedure involves prior consultation between OCI and the Espionage                   MOU with local FBI defines point at which referral must
particularly those responsible for CI and all facets (physical, personnel, and information) of                                 Unit, National Security Division, FBI HQ, to be followed by a detailed letter                  be made to FBI. Section 811 of PL 103-359 mandates cooperation
security.                                                                                         X     X       X        X     outlining the allegations of potential espionage activity.                              I
                                                                                                                                                                                                                              between FBI and CI personnel without overlap. Education will
                                                                                                                                                                                                                              be provided to all CI personnel.



18. OCI will request that FBI Headquarters recruit and station FCI-experienced Special Agents                                  This recommendation has been implemented.
in the 5 nuclear laboratory jurisdictions.                                                        X                                                                                                                    I

19. Local CIOs will establish formal procedures for liaison with their local FBI counterparts.                                 This recommendation has been implemented.
All CIOs should have direct access to local FBI officials. The efficacy of these procedures                                                                                                                                   The three labs reviewed are following intended practices.
will be assessed in the inspection process.                                                                                                                                                                                   However, only Livermore is using old CI guidance as formal
                                                                                                                                                                                                                              procedures. Los Alamos has drafted formal procedures but they have
                                                                                                        X       X        X                                                                                             I
                                                                                                                                                                                                                              not been issued yet. Procedures should be formalized in writing so
                                                                                                                                                                                                                              that future changes in personnel will allow these practices to
                                                                                                                                                                                                                              continue.

20. The OCI will work with CIA to develop an expanded DOE distribution list for all CIA CI                                     This recommendation has been implemented.
                                                                                                  X                                                                                                                    I
analytical products.


                                                                                                                                                                                                                                            Los Alamos National Laboratory (LANL)
       I = Implemented                                                                                                                                                                                                                          Sandia National Laboratories (SNL)
       O =Open recommendation                                                                                                                                                                                                        Lawrence Livermore National Laboratory (LLNL)
                                                                                                                           Office of Inspector General
                                                                                                     Status of Department of Energy Counterintelligence Implementation Plan




                                                                                                     Applicable To:                            Status of Recommendations Per                              Results
                              Recommendations                                                                                                   Department’s Status Report                                 of IG                  IG
                          In CI Implementation Plan                                             HQ   LANL    SNL      LLNL                    Received by the OIG May 27, 1999                            Review               Comments

21. Enhance coordination with CIA.                                                              X                            This recommendation has been implemented.                                       I
22. Enhance coordination with NSA.                                                              X                            This recommendation has been implemented.                                       I
23. The Analysis Program will participate in and contribute to, but not direct, future annual                                This recommendation has been implemented.
                                                                                                X                                                                                                            I
assessments of the threat to DOE weapons and facilities.
24. Beginning in FY1999, funding for the DOE CI program should be programmed in the                                          This recommendation has been implemented. Funding for OCI has been
National Foreign Intelligence Program (NFIP) and consolidated in a single, dedicated line                                    consolidated into a single dedicated line appropriation in the DOE budget.
appropriation in the DOE budget.                                                                X                            Beginning in FY2000, OCI will appear for the first time as one individual       I
                                                                                                                             component of DOE’s Foreign Intelligence Program in the Congressional
                                                                                                                             Budget Justification Book.




                                                                                                                                                                                                                           Los Alamos National Laboratory (LANL)
       I = Implemented                                                                                                                                                                                                         Sandia National Laboratories (SNL)
       O =Open recommendation                                                                                                                                                                                       Lawrence Livermore National Laboratory (LLNL)
                                                                                                                  Office of Inspector General
                                                                                            Status of Department of Energy Counterintelligence Implementation Plan




                                                                                            Applicable To:                          Status of Recommendations Per                              Results
                           Recommendations                                                                                           Department’s Status Report                                 of IG                             IG
                       In CI Implementation Plan                                       HQ   LANL    SNL      LLNL                  Received by the OIG May 27, 1999                            Review                          Comments


TIER TWO                       12 recommendations; 5
implemented
25. CI and Security Awareness briefings should be targeted to the audience,                                         This recommendation has been implemented. OCI’s Training
allowing for tailored presentation to various segments of the lab community.                                        Program Manager continues to work to diversify OCI’s training                        Information on CI and Security Awareness briefings
OCI’s training program will establish minimum standards to ensure consistency                                       offerings. For example, OCI has contracted with a renowned                           have been communicated orally to the field. There
and equivalency for a national program.                                                                             Russian defector who will lecture at various DOE facilities                          was a meeting with HQ and field CIO’s in December
                                                                                       X                            regarding the methodology of the Russian Intelligence Services.               I      1998. A formal program that conveys to all what
                                                                                                                    Also, OCI is working on a special CI awareness briefing that                         the minimum standards are should be developed.
                                                                                                                    will be presented to senior DOE staff and managers in the near future.               This would establish expectations for content and
                                                                                                                                                                                                         performance.

26. CIOs will enter into CARDS sensitive country visit/assignment and foreign                                       This recommendation has been implemented.                                            Although Oakland Operations Office does not have a
travel data that produces CI relevant information in order to ensure that CARDS              X       X        X                                                                                   I      CARDS terminal in Oakland, they do have one at the
remains pure.                                                                                                                                                                                            Livermore site.
27. The OCI will encourage senior level DOE, laboratory, and FBI officials to                                       This recommendation has been implemented.
develop formalized means of periodic communications to discuss CI matters of           X     X       X        X                                                                                   I
mutual interest.
28. The OCI must be granted some level of access to Special Access Programs                                         This recommendation has been implemented. The Director, OCI is
(SAPs) in order to contribute to the development of heretofore non-existent CI                                      now a member of the Special Access Program Oversight Committee
plans required in the Security Program Manual.                                         X                            (SAPOC), and has been briefed into all DOE SAPs.                              I

29. All employees, not exclusively those with clearances, should receive CI and                                     OCI is creating a module that will become a mandatory part of DOE’s
security awareness briefings.                                                                                       Annual Security Awareness Briefing, provided to all DOE personnel
                                                                                                                    with clearances. OCI will also work with the Office of Security Affairs
                                                                                                                    to jointly produce an abbreviated version of the CI Awareness portion of             There is a draft implementation plan working. HQ is also
                                                                                       X                            the briefing which will be given to all employees beginning with             O       developing a module for this training which should be
                                                                                                                    the FY 2000 briefing cycle.                                                          available for use in the FY 2000 cycle of briefings.




30. The Visit and Assignment Management System (VAMS) recapitalization                                              The Visits and Assignments Management System (VAMS) will be
project should be canceled. Local databases, many of which are already                                              replaced by a new system, presently under development by OCI.
developed, should be used to approve and track all foreign visit and assignment                                     However, until that system is deployed, those foreign visits and                     HQ is currently in the Option Paper stage. They are
requests. OCI will take the lead in designing a new centralized reporting system                                    assignments personnel at all DOE sites that do not possess an                        determining what is needed for the new system. The field
which will track (and thus be able to definitively report to Congress on) those                                     independent foreign visits and assignments tracking system                           is using several different locally developed databases.
visits and assignments which actually occurred, so that all such data for the entire                                must continue to enter data into VAMS. This process will be detailed                 One of these, Foreign Access Records Management
DOE complex will be housed in one place.                                               X     X       X        X     in DOE Order 1240.2c, presently being revised. Design of this new            O       System (FARMS) was developed by a former Los Alamos
                                                                                                                    system will be completed in the Fall of 1999.                                        employee who did not prepare a users manual or
                                                                                                                                                                                                         documentation for the system. Users of FARMS find it
                                                                                                                                                                                                         hard to work with and no training is available.




                                                                                                                                                                                                                      Los Alamos National Laboratory (LANL)
      I = Implemented                                                                                                                                                                                                     Sandia National Laboratories (SNL)
      O =Open recommendation                                                                                                                                                                                   Lawrence Livermore National Laboratory (LLNL)
                                                                                                              Office of Inspector General
                                                                                        Status of Department of Energy Counterintelligence Implementation Plan




                                                                                        Applicable To:                          Status of Recommendations Per                            Results
                          Recommendations                                                                                        Department’s Status Report                               of IG                              IG
                      In CI Implementation Plan                                    HQ   LANL    SNL      LLNL                  Received by the OIG May 27, 1999                          Review                           Comments

31. The Analysis Program will fully exploit the wealth of CI information                                        This recommendation has been implemented. The Analysis Program
contained in the Counterintelligence Analytical Research Data System                                            has produced a threat assessment regarding two proliferant countries,
(CARDS), and to a lesser extent Sensitive Country Information Logging                                           relying largely on CARDS data, and has a second threat assessment
System (SCILS), databases, and place it in disseminable form for use by                                         underway. Also, OCI presently is funding a pilot project to determine
DOE facilities and by the larger U.S. Intelligence Community (USIC) when           X                            the usefulness of SCILS data.                                               I
appropriate.



32. As mandated by PDD-61, in order to better integrate the CI and FI elements                                  OCI’s FY 1999 budget was not large enough to fund field CI analysts.
at the DOE laboratories, CI analysts at the three nuclear weapons laboratories                                  OCI’s FY 2000 budget will allow OCI to place CI analysts at the three
will be collocated with the Field Intelligence Element (FIE).                                                   nuclear weapons laboratories, collocated with the FIE.                             HQ has included money in the FY 2000 budget to allow
                                                                                                                                                                                                   this to happen in the field. Los Alamos is in the process
                                                                                         X       X        X                                                                                O       of collocating Field Intelligence Element personnel
                                                                                                                                                                                                   with CI. Sandia-New Mexico indicated this could be a
                                                                                                                                                                                                   problem.


33. One future focus of the Analysis Program will be the area of "economic                                                                                                                         There was an analyst hired the week of 6/14/1999. This
espionage," specifically Cooperative Research and Development Agreements           X                                                                                                       O       individual will focus on economic espionage especially in
(CRADAs) conducted at the laboratories.                                                                                                                                                            the area of CRADAs.
34. Under the authority of the Secretary of Energy, the OCI Director will create
a working group to identify high-risk DOE contractor or federal personnel
outside the traditional high-risk programs. Subject matter experts from DOE
programs and laboratories, as well as CI and security personnel, will be
represented on this working group.                                                 X                                                                                                       O       No group has been created.




35. Within the next 12 months, OCI Director will establish an initial Intrusion                                 OCI recently initiated a pilot program to address both CI implications
Detection and Analysis Capability in coordination with DOE’s Chief Information                                  of email to foreign nations and intrusion detection at four Department
Officer, Chief Infrastructure Assurance Officer, and Lab Directors.                                             of Energy sites in FY 1999. The cost of this pilot for FY 1999 is
                                                                                                                $2 million. Expansion of this pilot to an additional eight sites in
                                                                                   X                            FY 2000 will require an additional $8 million.                             O       This is part of the CI-Cyber Pilot Program.




36. OCI recommends the Sec of Energy establish a task force to develop a
means for auditing all DOE-affiliated High Performance Computers to ensure
they are not being used by foreign nationals for purposes other than what has
been specifically authorized by export control authorities.                        X                                                                                                       O       There has not been a task force established.




                                                                                                                                                                                                                Los Alamos National Laboratory (LANL)
      I = Implemented                                                                                                                                                                                               Sandia National Laboratories (SNL)
      O =Open recommendation                                                                                                                                                                             Lawrence Livermore National Laboratory (LLNL)
                                                                                                                             Office of Inspector General
                                                                                                       Status of Department of Energy Counterintelligence Implementation Plan




                                                                                                       Applicable To:                           Status of Recommendations Per                               Results
                              Recommendations                                                                                                    Department’s Status Report                                  of IG                                  IG
                          In CI Implementation Plan                                               HQ   LANL    SNL      LLNL                   Received by the OIG May 27, 1999                             Review                               Comments


TIER THREE        10 recommendations; 1
overtaken by events and 2 implemented

37. The OCI will establish a continual in-house CIO training program which will move
beyond the introductory nature of current DOE CI training courses, and ensure that there
are also greater opportunities for all CIOs to participate in applicable U.S. Intelligence
Community (USIC) training courses.                                                                X                                                                                                           O       A training track for CI personnel is being developed.




38. The OCI will establish a mentoring program which fosters the exchange of knowledge                                                                                                                                The OCI training program manager may establish when the need
between inexperienced and experienced CIOs.                                                       X     X       X        X                                                                                    O
                                                                                                                                                                                                                      arises.
39. In Phase II of this process, the OCI will develop a personnel system which will:
1)clearly articulate the standards by which new CIOs will be hired, 2) establish individual
performance measures for existing CIOs, and 3) develop a career path to include                   X                                                                                                           O       Nothing has been done with the personnel system.
training courses and milestones, which will assist the professional advancement of CIOs.


40. The OCI believes that the Secretary of Energy should commission a study to
examine the question of whether DOE Counterintelligence and Security should be combined in                                                                                                                            This was done as part of studying the Department’s reorganization.
                                                                                                  X                                                                                                            I
part or whole.                                                                                                                                                                                                        As a result, the decision was made not to combine CI and security.

41. The OCI believes that the Secretary of Energy should commission an independent and                                                                                                                                Although no action has been taken to request an audit, the
narrowly focused audit of the security clearance adjudication process.                            X                                                                                                           O       Secretary would like to have the FBI do the Background
                                                                                                                                                                                                                      Investigations, but cost must be considered. (this ties in with #42)
42. The team does not believe that Background Investigations (BIs) are being conducted
satisfactorily. As such and as per DOE Order 472.1B Personnel Security Activities and the                                                                                                                             DOE’s intention is to let the FBI do at least the most sensitive
Atomic Energy Act, as amended, DOE should request that all further Single Scope                   X                                                                                                           O
                                                                                                                                                                                                                      background investigations.
Background Investigations (SSBIs) be conducted by the FBI.

43. DOE should require all DOE contractor-operated facilities where classified and sensitive
technical business is conducted to establish Personnel Evaluation Boards (PEBs).                                                                                                                                      There was concern by the field about what the Personnel
                                                                                                                                                                                                                      Evaluation Boards would do and how much involvement the CI
                                                                                                  X     X       X        X                                                                                    O       personnel would have. HQ needs to provide better explanations
                                                                                                                                                                                                                      and guidance on what PEBs should be, who should sit on them
                                                                                                                                                                                                                      and when they should be convened.

44. The OCI believes that DOE’s two computer security programs should be consolidated                                          This recommendation has beenimplemented, pursuant to a May 1999 Department             The Secretary has reorganized the Department to accomplish this
                                                                                                  X                                                                                                            I
under one organization.                                                                                                        of Energy reorganization.                                                              recommendation.
45. The Director, OCI will request the CIA’s assistance in filling critical substantive gaps by
                                                                                                  X                                                                                                           O       Initial conversations have begun between DOE and the CIA.
assigning analysts on a rotational detail to OCI.
46. OCI will have CARDS terminals placed at select FBI Field Offices or Resident Agencies,                                     This recommendation has beenovertaken by events, and will not be further               No action will be taken on this recommendation. DOE has decided
with appropriate security precautions taken.                                                      X                            considered.                                                                    O       that this is no longer necessary since the interaction between CI
                                                                                                                                                                                                                      personnel and the FBI has been improved.




                                                                                                                                                                                                                                    Los Alamos National Laboratory (LANL)
       I = Implemented                                                                                                                                                                                                                  Sandia National Laboratories (SNL)
       O =Open recommendation                                                                                                                                                                                                Lawrence Livermore National Laboratory (LLNL)
                                                                                Appendix B
                              SCOPE AND METHODOLOGY

We conducted the review at Headquarters, Albuquerque Operations Office, Oakland
Operations Office, Los Alamos National Laboratory, Sandia National Laboratories and
Lawrence Livermore National Laboratory from May through June 1999. To accomplish our
review objective, we:

   •   reviewed the status of the implementation plan;

   •   interviewed Headquarters, Operations Offices, and Laboratory personnel to determine
       status;

   •   reviewed documentation to support implementation actions;

   •   observed operational practices;

   •   held discussions with local FBI officials;

   •   reviewed Office of Inspector General report, DOE/IG-0445, dated May 1999 which
       reported on weaknesses in the Department of Energy’s export licensing process and
       issues relating to associated foreign visits and assignments;

   •   reviewed General Accounting Office report GAO/RCED-97-229 dated September 25,
       1997, which reported on deficiencies related to controls over foreign visitors to the
       Department of Energy’s laboratories; and,

   •   reviewed General Accounting Office testimony GAO/T-RCED-99-28 dated
       October 14, 1998, which reported on DOE’s need to improve controls over foreign
       visitors to its weapons laboratories.

We did not assess the effectiveness of the actions taken to implement the recommendations.
This review was not performed in accordance with generally accepted government auditing
standards.




                                             10
                                                    IG Report No. DOE/IG-0448




                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as possible
to our customers’ requirements, and therefore ask that you consider sharing your
thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

       1.     What additional background information about the
              selection, scheduling, scope, or procedures of the audit or
              inspection would have been helpful to the reader in
              understanding this report?

       2.     What additional information related to findings and
              recommendations could have been included in this report to
              assist management in implementing corrective actions?

       3.     What format, stylistic, or organizational changes might have made
              this report’s overall message more clear to the reader?

       4.     What additional actions could the Office of Inspector General have
              taken on the issues discussed in this report which would have been
              helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet as the following alternative addresses:

       U.S. Department of Energy Management and Administration Home Page
                        http://www.hr.doe.gov/ig

                                           or

                            http://www.ma.doe.gov

 Your comments would be appreciated and can be provided on the Customer Response
                          Form attached to the report.
